No. 20-6368

IN THE SUPREME COURT OF THE UNITED STATES
January 13, 2021

JAMES WALKER, Petitioner,
v,

THE STATE OF NEVADA, Respondent

CERTIFICATE OF SERVICE

I, JONATHAN E. VANBOSKERCK, a member of the Bar of this Court, hereby certify
that on this 13th day of January, 2021, one copy of Respondent’s Brief in Opposition to Petition

for the Writ of Certiorari in the above-entitled case was mailed, first class postage prepaid.

To: *JOANNE L. DIAMOND (counsel of record)
Martin L. Novillo
Assistant Federal ue Defenders
411 E. Bonneville, Ste. 250
Las Vegas. Nevada 89101
*Counsel for Petitioner

I further certify that all parties required to be served have been served.

     

Chief Deputy District Attorney
Nevada 006528
Regional Justice Center
70 Lewis Avenue

as Ve as, Nevada 89155-2212
(702) 6

ounsel of PR ord*

Counsel for Respondent
